Record Press Inc., 229 West 36th Street, New York, N.Y. 1 □ 018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.
SS:

87833

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Edward Gutowski being duly sworn. deposes and says that deponent is not party ta the action. and is aver 18 years of age.
That an the 20th day af August 2021 deponent served 3 copies af the within
BRIEF OF AMICI CURIAE PHYSICIANS FOR HUMAN RIGHTS, AMERICAN PSYCHOANALYTIC
ASSOCIATION, COALITION FOR AN ETIDCAL PSYCHOLOGY, PSYCHOLOGISTS FOR SOCIAL
RESPONSIBILITY, PHIL G. ZIMBARDO, PHD, STEPHEN N. XENAKIS, MD, MATTHEW WYNIA, MD,
MPH, KERRY J. SULKOWICZ, MD, STEPHEN SOLDZ, PHD, GAIL SALTZ, MD, STEVEN REISNER,
PHD, VINCENT IACOPINO, MD, PHD, DAVID S. CANTOR, PHD, AND CAROL A. BERNSTEIN, MD IN
SUPPORT OF RESPONDENTS

upon the attorneys at the addresses below. and by the fallowing method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Elizabeth B. Prel □ gar
Acting Solicitor General
United States Department □f Justice
850 Pennsylvania Avenue, NW
Washington. DC 20530
(202) 514-2217

David F. Klein
Pillsbury Winthrop Shaw Pittman LLP.
1200 17th Street, NW
Washington, DC 20036
(202) 663-8000

Attorneys for Respondents
layn a/-Abidin Muhammad Husayn, et al

Attorneys for Petitioner
United States ofAmerica
Christopher W. T□ mpkins
Betts, Patterson HMines, P.S.
7DI Pike Street, Suite 1400
Seattle, WA 881 □I
(206) 282-8888

Attorneys for Respondents
James Bmer Mitchell and John Jessen
I, Edward Gutowski, declare under-penalty □ f perjury under the laws □f the United States □f America that the foregoing is true and correct,
executed on October 14. 2 □ 2 □. pursuant to S u ~ u ~ t i e ~ requiterlJnlie served. have been served.

Edward Gutowski
Sworn to me this

August 20, 2021
Jasmine Williams
Notary Public, State □ f New Yark
Na. OI0S6I01366
Case Name: United States v. Zubaydah
Docket/Case No. 20-827

